     Memorandum from the Office of the Inspector General



     May 13, 2009

     Kimberly S. Greene, WT 7B-K

     FINAL REPORT – INSPECTION 2008-12040 – DISTRIBUTOR REVIEW OF
     LEWISBURG ELECTRIC SYSTEM



     Attached is the subject final report for your review and action. Your written comments,
     which addressed your management decision and actions planned or taken, have been
     included in the report. Please notify us when final action is complete.

     Information contained in this report may be subject to public disclosure. Please advise
     use of any sensitive information in this report that you recommend be withheld.

     If you have any questions, please contact Michael A. Driver, Project Manager, at
     (423) 785-4813 or Gregory C. Jaynes, Deputy Assistant Inspector General, Inspections,
     at (423) 785-4810. We appreciate the courtesy and cooperation received from your staff
     during the audit.



(for) Robert E. Martin
      Assistant Inspector General
       (Audits and Inspections)
      ET 3C-K

     KSL:JP
     Attachment
     cc (Attachment):
           Peyton T. Hairston Jr., WT 7B-K
           Tom D. Kilgore, WT 7B-K
           John E. Long Jr., WT 7B-K
           Richard W. Moore, ET 4C-K
           Emily J. Reynolds, OCP 1L-NST
           John M. Thomas III, WT 4B-K
           John G. Trawick, WT 3D-K
           OIG File No. 2008-12040
                    Tennessee Valley Authority
                    Office of the Inspector General


Inspection Report



DISTRIBUTOR REVIEW
OF LEWISBURG
ELECTRIC SYSTEM




Inspection Team                 Inspection 2008-12040
Michael A. Driver                        May 13, 2009
Michael L. Lane
Office of the Inspector General                                                                  Inspection Report




TABLE OF CONTENTS
EXECUTIVE HIGHLIGHTS ............................................................................ i

BACKGROUND................................................................................................ 1

OBJECTIVE, SCOPE, AND METHODOLOGY ........................................ 1

FINDINGS ......................................................................................................... 2

   CONTRACT COMPLIANCE ISSUE ................................................................. 3

   USE OF ELECTRIC SYSTEM REVENUES ..................................................... 3

   TVA OVERSIGHT OPPORTUNITIES .............................................................. 4

RECOMMENDATIONS....................................................................... 5


APPENDICES
A. LETTER DATED APRIL 7, 2009, FROM RICHARD TURNER TO ROBERT E.
   MARTIN

B. MEMORANDUMS DATED APRIL 30, 2009, AND MAY 12, 2009, FROM
   KIMBERLY S. GREENE TO ROBERT E. MARTIN




Inspection 2008-12040
                    TVA Office of                                May 2009
                    the Inspector                                Inspection 2008-12040
                    General                                      Lewisburg Electric System
Why the OIG Did This Review                                      What the OIG Found
As part of the annual inspection plan, the OIG                   Our review of LES found no material issues related
performed a review of Lewisburg Electric System                  to (1) the proper reporting of electric sales and
(LES) which is a distributor for TVA power based in              (2) nondiscrimination in providing electricity to
Lewisburg, Tennessee. Annual revenues were                       members of the same rate class. However, we
approximately $22.9 million in fiscal year 2008.                 found a contract compliance issue regarding LES's
TVA relies on distributors to report customer usage              implementation of customer contracts. The contract
and subsequently the amount owed to TVA                          with TVA requires LES to have contracts with all
(Schedule 1). Customers are generally classified                 customers whose demand is greater than 50 kW.
as residential, commercial, and manufacturing.                   We found required contracts for LES customers with
Within these classifications are various rate classes            demand greater than 50 kW were not in place for all
based on the customer type and usage. 
                                                                 customers.

The objective of the review was to determine                     In addition, we found that LES had more than
compliance with key provisions of the power contract             enough cash on hand to fund planned capital
between TVA and LES including (1) proper reporting
                                                                 expenditures and provide a cash reserve. While
of electricity sales by customer class to facilitate
                                                                 TVA has established guidelines to determine if a
proper revenue recognition and billing by TVA;
                                                                 distributor has adequate cash reserves (cash ratio of
(2) nondiscrimination in providing electricity to
                                                                 5 to 8 percent), TVA has not established guidelines
members of the same rate class; and (3) use of
                                                                 to determine if a distributor's cash reserves are
revenues, including any surplus, for approved
purposes such as operating expenses, debt service,               excessive.
tax equivalent payments, and reasonable reserves
for renewals, replacements, and contingencies.                   • As of June 30, 2008, LES reported cash of
                                                                   $7.5 million and planned capital expenditures of
What the OIG Recommends                                            about $4.8 million which left a cash reserve of
                                                                   about $2.7 million.
We recommend the Chief Financial Officer (CFO)
take action to ensure LES complies with the contract             Finally, we identified opportunities to enhance TVA
provision regarding formal customer contracts. In                oversight of the distributors. Specifically, we noted
addition, the CFO, in collaboration with the Board of            TVA has not (1) provided definitive guidance for
Directors as needed, should provide additional                   distributors on what constitutes prudent
guidance on proper use of funds and develop criteria             expenditures and (2) defined criteria for determining
to be used in determining whether a distributor's cash           when a distributor's cash reserves are excessive.
reserves are excessive.

TVA and Lewisburg management generally agreed
with and are taking actions to address the
recommendations. See Appendices for complete
responses.


For more information, contact Michael Driver, Project Manager,
at (423) 785-4813 or Gregory Jaynes, Deputy Assistant
Inspector General, Inspections, at (423) 785-4810.



                                                                                                               Page i
Office of the Inspector General                                          Inspection Report


BACKGROUND
The Lewisburg Electric System (LES) is a distributor for Tennessee Valley
Authority (TVA) power based in Lewisburg, Tennessee, with revenues from
electric sales of approximately $22.3 million and $22.9 million in fiscal years
(FY) 2007 and 2008, respectively. TVA relies on distributors to report customer
usage and subsequently the amount owed to TVA (Schedule 1). Customers are
generally classified as residential, commercial, and manufacturing. Within these
classifications are various rate classes based on the customer type and usage.
Table 1 shows the customer mix for LES as of June 2008.

                            LES's Customer Mix as of June 2008

                                      Number of                        Kilowatt
      Customer Classification         Customers         Revenue       Hours Sold
    Residential                             4,360   $     5,198,930      64,274,414
    General Power – 50 kW & under
    (Commercial)                            1,200         1,884,062      19,653,436
    General Power – Over 50 kW
    (Commercial or Manufacturing)             206        15,327,425     240,419,226
    Street and Athletic                        48           362,293       4,224,572
    Outdoor Lighting                           10            99,634       1,091,792
     Total                                  5,824   $    22,872,344     329,663,440
                                                                             Table 1

The distributors are required to establish control processes over customer setup
rate application, and measurement of usage to ensure accurate and complete
reporting to TVA. LES, like many other distributors, outsources their billing and
invoice processing to a third-party processor, Southeastern Data Cooperative
(SEDC). LES uses SEDC systems to establish and set up new customers, input
customer meter information, perform the monthly billing process, and maintain
customer account information. Additionally, SEDC provides LES with the
management reporting (e.g., exception reports) designed to ensure the accuracy
and completeness of the customer invoice and the purchased power invoice
(Schedule 1) to TVA. All other accounting and finance responsibilities are done
by LES which has a Board of Directors providing oversight and a general
manager and accountant managing the daily activities. LES does not have any
nonelectric business interests.


OBJECTIVE, SCOPE, AND METHODOLOGY
This inspection was initiated as a part of our annual workplan. The objective was
to determine compliance with key provisions of the power contract between TVA
and LES including:

•   Proper reporting of electricity sales by customer class to facilitate proper
    revenue recognition and billing by TVA.
Inspection 2008-12040                                                              Page 1
Office of the Inspector General                                        Inspection Report


•   Nondiscrimination in providing electricity to members of the same rate class.
•   Use of revenues, including any surplus, for approved purposes such as:

    − Operating expenses;
    − Debt service;
    − Tax equivalent payments; and
    − Reasonable reserves for renewals, replacements, and contingencies.

To achieve our objective, we:

•   Documented and assessed the controls over new customer account setup
    and master file maintenance.
•   Documented and tested the procedures and controls in place to ensure
    proper sales cutoff and the reconciliation of sales to the general ledger.
•   Documented and tested the procedures and controls in place to ensure
    complete and accurate invoicing of payments to TVA.
•   Determined through inquiry and review of documentation whether LES had
    any nonelectric, system-related business interests supported by electric
    system funds.
•   Reviewed disbursements to determine if electric system funds were used for
    any items not allowed under the TVA power contract.
•   Reviewed cash and cash equivalents in relation to planned capital
    expenditures and other business uses of cash.

The scope of the review period was July 2006 through June 2008. Fieldwork
was conducted in October 2008. This review was conducted in accordance with
the "PCIE Quality Standards for Inspections."


FINDINGS
Our review of LES found no material issues related to (1) the proper reporting of
electric sales and (2) nondiscrimination in providing electricity to members of the
same rate class. However, we found improvement was needed to comply with
the contract terms between TVA and LES in the area of implementation of
customer contracts.

In addition, LES had more than enough cash on hand to fund planned capital
expenditures and provide a cash reserve. While TVA has established guidelines
to determine if a distributor has adequate cash reserves (cash ratio of 5 to
8 percent), TVA has not established guidelines to determine if a distributor's cash
reserves are excessive. Finally, as we explain herein, there are significant
opportunities to enhance TVA oversight of the distributors.
Inspection 2008-12040                                                            Page 2
Office of the Inspector General                                                                 Inspection Report


CONTRACT COMPLIANCE ISSUE
Our review found contracts were not in place for all customers whose power
demand exceeds 50 kW per month. Under LES's contract with TVA, all
customers that exceed demand of 50 kW monthly are required to sign a formal
contract. LES was unable to provide signed contracts for 71 of their 166 class 50
and above customers. For new customers, we did note LES appears to have
controls in place to comply with this requirement.

USE OF ELECTRIC SYSTEM REVENUES
Under the TVA power contract, approved uses of revenues from electric system
operations, including any surplus, are (1) operating expenses; (2) debt service;
(3) tax equivalent payments; and (4) reasonable reserves for renewals,
replacements, and contingencies. While TVA has established guidelines to
determine if a distributor has adequate cash reserves (cash ratio1 of 5 to
8 percent), TVA has not established guidelines to determine if a distributor's cash
reserves are excessive.

Our review of LES's financial status and planned capital projects found LES had
more than enough cash on hand to fund planned capital expenditures and
provide a cash reserve. As of June 30, 2008, LES had about $7.5 million in its
actual cash accounts. Table 2 shows plans for major capital expenditures
obtained from LES's general manager and our review of LES's Board of
Director's meeting minutes.

LES's Planned Capital Expenditures

                                                                                    Project        Planned
                       Capital Expenditure Plans                                     Cost         Completion
Business Park Project                                                                 $495,000         Unknown
Business Park Substation                                                            $3,500,000         Unknown
South Ellington Parkway Poles                                                         $400,000         Unknown
Ellington Parkway Extension                                                           $350,000         Unknown
Mayes Substation                                                                       $15,000         Unknown
Engineering Department                                                                 $65,000         Unknown
Total Cost                                                                          $4,825,000
                                                                                                         Table 2

When compared to LES's capital expenditure plans for the foreseeable future,
the balance in LES's cash accounts was enough to pay for these items and leave
about $2.7 million as a reserve, as shown in Table 3. Table 3 also shows LES's
cash ratio percentage was about 36 percent before accounting for planned
capital expenditures and 13 percent after accounting for them.

1
    TVA reviews the cash ratios of distributors as part of its regulatory rate review function. Cash ratio is
    calculated as follows:                         Cash + Cash equivalents
                             Total Variable Expenses (Operations and Maintenance + Purchased Power)
Inspection 2008-12040                                                                                      Page 3
Office of the Inspector General                                                                Inspection Report


         LES's Cash Accounts Compared to Planned Capital Expenditures

                                 Cash and Cash             Planned Capital       Reserve After Planned
                                  Equivalents               Expenditures          Capital Expenditures
                                         $7,500,000                $4,825,000                       $2,675,000
FY 2008
Cash Ratio Percentage                            36%                                                      13%
                                                                                                        Table 3

Discussions with LES's management indicated the operating philosophy of the
LES Board and management was to use a conservative, debt-averse approach.
According to TVA records, over the past five years, LES has been approved for
rate increases of approximately 3.4 percent in 2003 and 2.5 percent in 2005.
Table 4 shows the rate increases received by LES and the cash position and
cash ratio at June 30 prior to the effective date of the rate increase.

                  LES's Rate Increases, Cash Position, and Cash Ratio

             Cash on Hand               Cash and Cash                    Rate Increase
           Equivalent to an 8%           Equivalents2            Effect on            Effective
               Cash Ratio               and Cash Ratio           Revenue Percent        Date
               $1,323,723                 $2,074,775             $582,455    3.4%    10/1/2003
                                            (CR = 12.5%)
                 $1,323,669                $3,546,161            $440,000        2.5%      10/1/2005
                                            (CR = 21.4%)
                                                                                                Table 4

Coupled with this debt-averse philosophy, distributors consider cash reserves as
a hedge against the risks of unforeseen costs from an aging infrastructure (e.g.,
equipment failure), potential loss of revenue from the economic impact on
commercial and industrial customers, and unpredictable weather. Examples of
weather events3 TVA distributors have incurred include damage from (1) the
recent January 27, 2009, ice storm in Kentucky and Tennessee where about
130,000 of TVA distributor consumers lost their electricity and (2) tornados and
the impact of tropical storms, such as the 2005 damage to Mississippi systems
resulting from hurricane Katrina.

TVA OVERSIGHT OPPORTUNITIES
We found opportunities to enhance TVA's oversight of the distributors.
Specifically, we noted TVA has not (1) provided definitive guidance for
distributors on what constitutes prudent expenditures and (2) defined criteria for
determining when a distributor's cash reserves are excessive.

2
    The cash and cash equivalents and cash ratio were computed based on information from Lewisburg's
    annual report as of June 30 prior to the effective date of the rate increase.
3
    After a severe weather event, utilities launch massive and costly round-the-clock restoration efforts. In
    addition to costs for miles of new wire, new poles, new transformers, and their own crews, utilities often
    have to pick up the bill for other utility crews providing assistance in the restoration effort.
Inspection 2008-12040                                                                                     Page 4
Office of the Inspector General                                      Inspection Report


No Policies Defining Appropriate Expenditures
We noted TVA could improve the controls over the use of electric system funds
by providing more definitive guidance to the distributors. While reviewing the
proper use of electric system revenue, we noted there were no definitive policies
on permitted expenditures (charity, scholarships, etc.) or investments/account
establishment. TVA has allowed distributor management and the distributor
Board's discretion in the decision-making process for determining what qualifies
as operational expenditures. Additional guidance in this area by TVA would
decrease the likelihood of misinterpretation of what constitutes a reasonable use
of electric funds. In discussions with the TVA Vice President, Strategy, Pricing,
and Contracts, actions to address recommendations in a previous review of
TVA's role as a regulator (Inspection 2005-522I) include the development of
distributor guidance pertaining to the use of electric system funds.

Distributor Cash Position
While TVA has established guidelines to determine if a distributor has adequate
cash reserves (cash ratio of 5 to 8 percent), TVA has not established guidelines
to determine if a distributor's cash reserves are excessive. TVA uses the cash
ratio as one of the factors in determining if a rate increase is warranted for a
distributor. However, the lack of defined criteria identifying when a distributor
may have more than adequate cash on hand could negatively impact TVA's
analysis regarding whether (1) a distributor's rates should be lower or (2) an
additional rate review may be warranted.


RECOMMENDATIONS
We recommend the Chief Financial Officer (CFO) work with LES to improve
compliance with the contract. Specifically, LES should:

 1. Review management reports listing customers that are above 50 kW hours
    without a contract and work with these customers to obtain signed contracts.

     Lewisburg's Response  Lewisburg stated they are aware of the contract
     shortage with their customers and have been working on it part time but will
     make a concerted effort to totally correct the problem. See Appendix A for
     Lewisburg's complete response.

     TVA Management's Response  The CFO agreed the Schedule of Rates
     and Charges requires distributors to obtain contracts with all customers
     whose actual or contract demand exceeds 50 kW. However, the CFO did
     not agree with our recommendation that Lewisburg should review
     management reports listing customers that are above 50 kW hours without a
     contract and work with these customers to obtain signed contracts. Rather,
     TVA management finds that the contract size threshold of 50 kW was
     established in 1963, and the relative customer size in 2009 versus 1963 is
     very different. Likewise, requiring contracts with small commercial

Inspection 2008-12040                                                          Page 5
Office of the Inspector General                                       Inspection Report


     customers is a time-consuming and difficult task which may provide little
     benefit for distributors or the TVA system. TVA management will
     recommend to the Board that a new and higher threshold be established as
     part of the rate change process with the distributors. When the rate change
     is put into effect, all retail customers above the new threshold will be
     expected to have executed contracts. Target completion date will coincide
     with the rate change efforts that are currently underway with the distributors
     and is expected to be in place by October 2010. See Appendix B for TVA's
     complete response.

     Auditor's Response The Office of the Inspector General (OIG) concurs
     with the planned action.

The CFO, in collaboration with the TVA Board of Directors where necessary,
should:

 2. Develop a comprehensive guide on permitted expenditures under the use of
    electric system revenues provision and expense accrual for distributor
    management to use going forward.

     TVA Management's Response  The CFO agreed it is appropriate to look
     at permitted expenditures in the context of the use of revenues provision in
     Section 6 of the wholesale power contract with the distributors. TVA
     management is exploring with the TVA Board the extent to which a
     comprehensive guideline is feasible and whether the TVA Board desires to
     adopt a policy that would employ such a guideline. Target completion date is
     December 2010. See Appendix B for TVA's complete response.

     Auditor's Response  The OIG concurs with the planned action.

 3. Develop criteria to be used in determining whether a distributor's cash
    reserves are excessive and incorporate the criteria into the rate setting
    process.

     TVA Management's Response  Management will make recommendations
     to the TVA Board that additional financial metrics should be employed for
     purposes of administering the resale rate provisions in Section 5 of the
     wholesale power contracts. The need to consider cash reserves will be
     included in TVA management's recommendations to the Board. A change in
     the current guidelines to include these additional financial metrics requires
     Board action. Target completion date is December 2010. See Appendix B
     for TVA's complete response.

     Auditor's Response  The OIG concurs with the planned action.

Recommendations 2 and 3 also apply to another separately issued distributor
report.

Inspection 2008-12040                                                           Page 6
Office of the Inspector General                                     Inspection Report


Additional Comments From Lewisburg  Lewisburg provided additional
comments regarding the Use of Electric Revenues section of the report.
Lewisburg stated several years ago prior to the ice storm of 1994, the Board of
Lewisburg and the General Manager knew they needed another substation so
Lewisburg started a very strict spending policy, which included having enough
revenues to pay at least one month's power bill from TVA. Lewisburg
constructed Williams Mayes substation which was paid for when finished and
continued the strict spending policy then the demand for more power appeared.
In 2002, Lewisburg built another substation and was able to pay for it when it was
finished. Each time, Lewisburg had enough left for the power bill. Lewisburg
management will find a way to control this extra money better in the near future,
but without having to borrow and pay interest. See Appendix A for Lewisburg's
complete response.




Inspection 2008-12040                                                         Page 7
APPENDIX A
 Page 1 of 1
APPENDIX B
 Page 1 of 6
APPENDIX B
 Page 2 of 6
APPENDIX B
 Page 3 of 6
APPENDIX B
 Page 4 of 6
APPENDIX B
 Page 5 of 6
APPENDIX B
 Page 6 of 6
